            DEPARTMENT OF HEALTH AND HUMAN SERVICES                              Office of Inspector General
                                                                                  Office of Audit Services

                                                                                        REGION IV
                                      NOV 1 0 2008                          61 Forsyth Street, S.W., Suite 3T41
                                                                                 Atlanta, Georgia 30303




Report Number: A-04-08-00043

Mr. Brian Setzer, Vice President of Operations
CIGNA Government Services
Two Vantage Way
Nashville, Tennessee 37228

Dear Mr. Setzer:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of
Inspector General (OIG), final report entitled "Review of High-Dollar Part B Claims
Processed by CIGNA Government Services Carrier No. 05535 for the Period January 1,
2004, Through December 31, 2006." We will forward a copy of this report to the HHS
action official on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters
reported. We request that you respond to this official within 30 days from the date of this
letter. Your response should present any comments or additional information that you
believe may have a bearing on the final determination.

Pursuant to the principles of the Freedom ofInformation Act, 5 U.S.C. § 552, as amended
by Public Law 104-231, OIG reports generally are made available to the public to the
extent the information is not subject to exemptions in the Act (45 CFR part 5).
Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or.comments about this report, please do not hesitate to call me,
or contact Eric Bowen, Audit-Manager, at (404) 562-7789 or through e-mail at
Eric.Bowen@oig.hhs.gov. Please refer to report number A-04-08-00043 in all
correspondence.

                                             Sincerely,



                                             Peter J. Barbera
                                             Regional Inspector General
                                              for Audit Services

Enclosure
Page 2 - Brian Setzer

Direct Reply to HHS Action Official:

Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106




                           ."
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  REVIEW OF HIGH-DOLLAR
PART B CLAIMS PROCESSED BY
CIGNA GOVERNMENT SERVICES
 CARRIER No. 05535 FOR THE
  PERIOD JANUARY 1, 2004,
THROUGH DECEMBER 31, 2006

            ,I,




                      Daniel R. Levinson
                       Inspector General
                        November 2008
                         A-04-08-00043
                    Office ofInspector General
                                     http:// oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments ofHHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the
reports also present practical recommendations for improving program operations.

Office ofInvestigations

The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigativ.e efforts of 01 lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG's internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                           Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.




          II        ,II
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with carriers to process Medicare Part B claims submitted by physicians and medical
suppliers (providers). CMS guidance requires providers to bill accurately and to report units of
service as the number of times that a service or procedure was performed.

Carriers currently use the Medicare Multi-Carrier System and CMS's Common Working File to
process Part B claims. These systems can detect certain improper payments during prepayment
validation.

CIGNA Government Services (CGS) has been a contractor for CMS since its inception in 1966.
CGS is responsible for Part B claims processing in Idaho, Tennessee, and North Carolina under
contract with CMS. During calendar years (CY) 2004-2006, CGS carriers processed
approximately 144 million Part B claims. CGS Part B carrier No. 05535 (the contractor) is the
Medicare Part B carrier for about 33,800 providers in North Carolina. During CYs 2004-2006,
the contractor processed more than 85 million Part B claims, 738 of which resulted in payments
of $1 0,000 or more (high-dollar payments). These high-dollar claims totaled $20,792,454.

OBJECTIVE

Our objective was to determine whether CGS high-dollar payments to North Carolina Part B
providers were appropriate.

SUMMARY OF FINDINGS

The contractor appropriately made 721 of the 738 high-dollar payments to North Carolina
providers. However, we identified 17 overpayments totaling $156,437. Generally, the
contractor made the overpayments because the providers incorrectly billed excessive units of
service. In addition, the Medicare claim processing systems did not have sufficient edits in place
during CYs 2004-2006 to detect and prevent payments for these types of erroneous claims.

RECOMMENDATION

We recommend that the contractor recover the $156,437 in identified overpayments.

AUDITEE COMMENTS

In written comments on the draft report, CIGNA Government Services stated that it had adjusted
these 17 claims and was pursuing the associated overpayments. CGS's comments are included
in their entirety as the Appendix.




                                                 1
                            TABLE OF CONTENTS




INTRODUCTION                                    1

  BACKGROUND                                    1
    Medicare Part B Carriers                    1
    CIGNA Government Services                   1
    "Medically Unlikely" Edits                  2

  OBJECTIVE, SCOPE, AND METHODOLOGY             .2
    Objective                                   2
    Scope                                       2
    Methodology                                 2

FINDINGS AND RECOMMENDATION                     3

  MEDICARE REQUIREMENTS                         3

  INAPPROPRIATE HIGH-DOLLAR PAYMENTS            3

  RECOMMENDATION                                4

  AUDITEE COMMENTS                              4

APPENDIX

  AUDITEE COMMENTS




                                    11
                                              INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS), which administers the
program, contracts with carriers to process Medicare Part B claims submitted by physicians and
medical suppliers (providers).

Medicare Part B Carriers

Prior to October 1, 2005, section 1842(a) ofthe Act authorized CMS to contract with carriers to
process and pay Medicare Part B claims submitted by providers. 1 Carriers also review provider
records to ensure proper payment and assist in applying safeguards against unnecessary
utilization of services. To process providers' claims, carriers currently use the Medicare Multi-
Carrier Claims System (MCS) and CMS's Common Working File (CWF). These systems can
detect certain improper payments during prepayment validation.

CMS guidance requires providers to bill accurately and to report units of service as the number
oftimes that a service or procedure was performed. During calendar years (CY) 2004-2006,
providers nationwide submitted approximately 2.4 billion claims to carriers. Of these, 31,576
claims resulted in payments of $10,000 or more (high-dollar payments). We consider such
claims to be at risk for overpayment.

CIGNA Government Services

CIGNA Government Services (CGS) has been a Medicare contractor for CMS since the
inception of the Medicare program in 1966. CGS processes Part B and Durable Medical
Equipment claims. CGS used the Medicare Viable Information Processing System (VIPS) to
process claims until March 2005 and began processing new claims using the MCS by April
2005. 2

Under contract with CMS, CGS is responsible for Part B claims processing in Idaho, Tennessee,
and North Carolina. During CYs 2004--2006, CGS carriers processed approximately 144 million
Medicare Part B claims. CGS carrier No. 05535 (the contractor) is the Medicare Part B carrier
for about 33,800 providers in North Carolina. During CYs 2004--2006, the contractor used the
VIPS and MCS to process approximately 85 million Part B claims,3 738 of which were high-
dollar payments. These high-dollar payments totaled $20,792,454.




IThe Medicare Modernization Act of 2003, P.L. No.1 08-173, which became effective on October 1, 2005, amended
certain sections of the Act, including section 1842(a), to require that Medicare administrative contractors replace
carriers and fiscal intermediaries by October 2011.

2CMS required carriers to transition to the MCS beginning in 2002. Before that time, carriers could use either the
VIPS or the MCS.

3CGS used the VIPS to process Part B claims until March of2005.

                                                          1
We examined Part B high-dollar payments for CGS carrier No. 05440 (A-04-08-00045) under a
separate review.

"Medically Unlikely" Edits

In January 2007, after our audit period, CMS required carriers to implement units-of-service
edits referred to as "medically unlikely" edits. These edits are designed to detect and deny
unlikely Medicare claims on a prepayment basis. According to the "Medicare Program Integrity
Manual," Publication 100-08, Transmittal 178, Change Request 5402, medically unlikely edits
test claim lines for the same beneficiary, Healthcare Common Procedure Coding System code,
date of service, and billing provider against a specified number of units of service. Carriers must
deny the entire claim line when the units of service billed exceed the specified number.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the CGS high-dollar payments to North Carolina Part B
providers were appropriate.

Scope

We reviewed the 738 high-dollar payments, totaling $20,792,454, that the contractor processed
during CYs 2004-2006.

We limited our review of the contractor's internal controls to those controls applicable to the 738
claims because our objective did not require an understanding of all internal controls over the
submission and processing of claims. Our review allowed us to establish reasonable assurance
of the authenticity and accuracy of the data obtained from the National Claims History file, but
we did not assess the completeness ofthe file.

We conducted our fieldwork from January 2008 through June 2008 by working with CGS,
located in Nashville, Tennessee, and providers that received high-dollar payments.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Medicare laws, regulations, and guidance;

    •   used CMS's National Claims History file to identify Part B claims with high-dollar
        Medicare payments;

    •   reviewed available CWF claim histories for claims with high-dollar payments to
        determine whether the claims had been canceled and superseded by revised claims or
        whether payments remained outstanding at the time of our fieldwork;

    •   contacted providers to determine whether high-dollar claims were billed and paid
        correctly and, if not, why the claims were billed or paid incorrectly; and


                                                 2
   •    coordinated our claim review with the contractor.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                            FINDINGS AND RECOMMENDATION

The contractor appropriately made 721 of the 738 high-dollar payments to North Carolina
providers. However, we identified 17 overpayments totaling $156,437. Generally, the
contractor made the overpayments because the providers incorrectly billed excessive units of
service. In addition, the Medicare claim processing systems did not have sufficient edits in place
during CYs 2004-2006 to detect and prevent payments for these types of erroneous claims.

MEDICARE REQUIREMENTS

The CMS "Carriers Manual," Publication 14, Part 2, section 5261.1, requires that carriers
accurately process claims in accordance with Medicare laws, regulations, and general
instructions. Section 5261.3 of the manual requires carriers to effectively and continually
analyze "data that identifies aberrancies, emerging trends and areas of potential abuse,
overutilization or inappropriate care, and ... on areas where the trust fund is most at risk, i.e.,
highest volume and/or highest dollar codes."

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

We identified 17 overpayments totaling $156,437. For 11 overpayments totaling $132,573,
providers incorrectly billed the contractor for excessive units of service. In aggregate, providers
billed 1,258 excessive units of service. Examples of these errors follow:

    •   One provider billed 405 units ofthe drug Avastin and Normal Saline on a claim that
        should have been billed as 40 units of service. This error resulted in 365 excess units of
        service claimed and an overpayment of$16,386.

    •   One provider billed 91 units for Chemotherapy administration on a claim that should
        have been billed as one unit of service. This error resulted in 90 excess units of service
        claimed and an overpayment of $1 0,834.

    •   One provider billed 580 units for Allograft Skin on two claims that should have been
        billed as 58 units of service. This error resulted in 522 excess units of service claimed
        and an overpayment of$23,143.

    •   One provider billed 30 units of the drug Campath on a claim that should have been billed
        as three units of service. This error resulted in 27 excess units of service claimed and an
        overpayment of$II,475.




                                                   3
For five overpayments totaling $5,282, we were unable to determine whether the provider billed
the claim incorrectly or the contractor paid the claim incorrectly. However, we identified
overpayments relating to incorrect rates paid (on a per unit basis) as follows:

    •   One provider received payment for the drug Benefix on a claim and reported an
        overpayment of$3,573.

    •   One provider received payments for various drugs on four claims and reported an
        overpayment of$1,709.

Further, one provider billed 139 units of service using the incorrect Healthcare Common
Procedure Coding System code. This error resulted in an overpayment of $18,582.

Generally, providers attributed the incorrect claims to clerical errors made by their billing staffs.
In addition, during CYs 2004-2006, the VIPS, MCS, and CWF did not have sufficient
prepayment controls to detect and prevent inappropriate payments resulting from claims for
excessive units of service. Instead, CMS relied on providers to notify the carriers of
overpayments and on beneficiaries to review their "Medicare Summary Notice" and disclose any
provider overpayments. 4

RECOMMENDATION

We recommend that the contractor recover the $156,437 in identified overpayments.

AUDITEE COMMENTS

In written comments on the draft report, CIGNA Government Services stated that it had adjusted
these 17 claims and was pursuing the associated overpayments. CGS's comments are included
in their entirety as the Appendix.




4The carrier sends a "Medicare Summary Notice" to the beneficiary after the provider files a claim for Part B
service(s). The notice explains the service(s) billed, the approved amount, the Medicare payment, and the amount
due from the beneficiary.

                                                        4
APPENDIX
                                                                                  APPENDIX

Brian D. Setzer
Vice I'resilJent




August 26, 2008                                                           CIGNA Government
                                                                          Services
                                                                           Two Vantage Way
                                                                           Nashville, TN 37228
                                                                           Telephone 615.782.4618
Peter j. Barbera                                                           Facsimile 615.782.4695
Regional Inspector General for Audit Services                              Brlan.Setzer@C1GNA.com
DHHS/OlG/OAS/Region IV
61 Forsyth Street, S.W., Suite 3T41
Atlanta, GA 30303-8909

Dear Mr. Barbera,

On July 30, Z008, CIGNA Government Services (CGS) received Draft Report A-04-08-00043
as a result of the OIG Review of High-Dollar Part B Claims Processed by CGS for the period
of January I, Z004, through December 31, 2006. CGS has reviewed and acknowledges the
17 high-dollar payments identified as overpayments in the report. CGS has adjusted these
17 claims and is pursuing the associated overpayments.

If you have any questions or additional requests related to this review, please contact Karina
Houston, Compliance Specialist at 615-782-4435.

Sincerely,

~?~,,~ D. ,5~7--
Brian D. Setzer
Vice President
ClGNA Government Services

Enclosure




                                                                                      .............CAlIS!
                                                                                              ~--,
